                                                                      ~'
                                                                  ~OF
                                                                I'"
  s. DEPARTMENT OF COMMERCE                                Jf               1ft


          Office of Inspector General
                                                                  ~TES df .,





         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION


                NEXRAD Software Maintenance


Final Inspection Report No. SED- 4559-   001/February    1993




                  PUBLIC RELEASE





                                   Office of Systems Evaluation
, .   ...                                  ...
                                          ::~    """




                                               #'" QI'



                                                  'f1 ~            UNITED STATES DEPARTMENT OF COMMERCE
                                           CO :                    The   Inspector General
                                                                   WaShington. Dc. 20230



                                       . fEB              1993..


            MEMORANDUM FOR	


            FROM:
                                          Ray Kammer
                                                       ;;~p~s 	                       ~d Atmosphere


            SUBJECT:	                     Inspectio (jJ~port on NEXRAD Software Maintenance
                                          (Report No. SED- 4559- 00I)


            This memorandum transmits our final inspection report concerning the maintainability
            of the NEXRAD software , as well as the ability of the Operational Support Facility to
            assume software maintenance , configuration management , and distribution
            responsibilities.

            We found that the NEXRAD software , in general , will be maintainable by virtue of
            prodigious efforts by the NEXRAD Joint Systems Program Office , OSF , and Paramax
            to improve the quality of the accompanying documentation and to refine the software
            maintenance training program. We also found that the OSF is making significant
            progress toward achieving a defined and disciplined software maintenance process.

            We have reached agreement with NOAA on implementing all of our recommendations
            except for (1) limiting the OSF to performing emergency corrections only prior to
            delivery of the mal software by Paramax , and (2) developing a five- year software
            support plan i order to generate credible aSF software maintenance staffing
            estimates. e final report reaffirms our recommendations.
            We thank NOAA staff for their assistance during this inspection.

            Attachment

            cc:	   Dr. Ron Alberty, Director , WSR- 88D Operational Support Facility
                   Robert Brown , NEXRAD Program Manager
                   Dr. Elbert Friday, Assistant Administrator , National Weather Service
                   Robert Valone , Director , Systems Program Office
                      ........................................
                         ......................................                   . .....'........."..
                                      . .. .. .. ;. .. 
. . . . . . . . . . . .. ...                .          .'
                                                                                       .. .... .......................... . . . . . ..
                                                             . .. .... .... ... .... ...




                                 TABLE OF CONTENTS



EXECUTIVE SUMMARY

INTRODUCTION........................................... 

PURPOSEANDSCOPE .......................................


BACKGROUND~............................................ 

OBSERVATIONS AND CONCLUSIONS .............................


           NEXRAD software , documentation , training, and computer resources
           provide a satisfactory basis for maintenance

                  Code Quality Adequate ...........................

                  Software Documentation Improved
                  Software Maintenance Training Restructured
                  Computer Resources Provided

    II.	   The OSF needs to conduct more thorough analysis to adequately
           estimate software maintenance staffing levels

    III.   Additional efforts are needed to ensure that the OSF has a disciplined
           software maintenance process ............................


    IV.	   More visibility is needed into NEXRAD algorithm changes.                                  . . . . . . . ..               11

           The contractor s obligations under the software warranty are unclear
                                                                                                                                    .11

    VI.	   Government plans to make software changes may impair the warranty
           and interfere with contractor efforts

                  Incomplete Emergency Release Procedures
                  Dual Software Baseline Risks .......................


RECOMMENDATIONS

GLOSSARY ...............................................


ACRONYMS...............................................
                                                                            19.

IT ACHMENT: AGENCY RESPONSE
   OFFICE
                      GENERAL

                      OF INSPECTOR


  FINAL INSPECTION REPORT

  NEXRAD SOFTWARE MAINTENANCE
  NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

  EXECUTIVE SUMMARY
 Under a tri-agency program , the Departments of Commerce , Defense , and Transportation are
 acquiring the Next Generation Weather Radar system. Using advanced Doppler technology
 and improvements in radar software , NEXRAD radars will improve the detection and
 measurement of storm severity, improve weather warning accuracy, increase warning lead
 times , and provide automated exchange of digital radar weather data among federal agencies.
 The NEXRAD system will be installed at a total of 154 sites. The Joint System Program
 Office is responsible for the acquisition and deployment of NEXRAD systems. Paramax
 Corporation is the prime contractor for NEXRAD.

 The Operational Support Facility in Norman , Oklahoma , will support the installed NEXRAD .
 systems , including maintenance , configuration management , and distribution of the software.
The JSPO currently controls the OSF budget and is responsible for ensuring that the OSP-
prepared to support NEXRAD when this responsibility is transferred to the National Weather
Service.

The purpose of this inspection was to assess the maintainability of the NEXRAD software , as
well as the ability of the OSF to assume software maintenance , configuration management
and distribution responsibilities. This inspection was prompted by concerns we raised about
deficiencies in Paramax ' s software development process and their potential impact on the
maintainability of the delivered software (see
                                                      Final Inspection Report on NEXRAD Software
Risks,Report No. TA- lOO , August 26 ,           1991). In addition ,software support is a new
responsibility for the OSF.

We found that the NEXRAD software , in general , will be maintainable by virtue of
prodigious efforts by the JSPO , OSF , and Paramax to improve the quality of the
accompanying documentation and to refine the software maintenance training program.
However , additional tri-agency efforts are needed to establish credible staffing estimates for
OSF software maintenance , to ensure that an effective and disciplined maintenance process is
in place , and to control major changes to software algorithms.

Our assessment that the NEXRAD software is maintainable should not be construed as an
assertion that the software , consisting of more than 400 000 executable lines of source code
is free from errors. Instead , maintainability means that the condition of the software is such
that trained software engineers at the OSF should be able to isolate and correct software
errors detected in the fielded NEXRAD systems            in a timely manner.
,',




      Our major conclusions are as follows:

            NEXRAD software , documentation , training, and computer resources provide a
            satisfactory basis for maintenance. We found that the quality of the code and
            documentation is adequate to permit the OSF to maintain most of the NEXRAD
            software without undue effort. Our concerns about maintainability have been
            mitigated significantly by thorough government review of the software documentation
            and by reasonable efforts by Paramax to improve it. The improved documentation

            coupled with improvements in the contractor-provided software maintenance training
            program , should generally compensate for the negative effects on maintainability that
            may be caused by development process deficiencies that existed during the earlier
            stages of the NEXRAD project. (See page 4.

            The OSF needs to conduct more thorough analysis to adequately estimate
            software maintenance staffing levels. The OSP has not conducted detailed planning
            based on an understanding of the quality and quantity of the code and documentation
            and on an analysis of the specific work to be
                                                            performed. Currently, the lack of well­
            defin~ tasks for the OSF to perform prior to and following the delivery of the final
            software by Paramax prevents the reasonable estimation of appropriate staffing levels.
            (See page 6.

             Additional efforts are needed to ensure that the OSF has a disciplined software
             maintenance process. The OSF is highly aware of the need for a defined and
             disciplined software maintenance process , and has many of the necessary plans and
             controls in place. However , additional efforts are needed to identify problems
           . deficiencies , and areas for refinement , as well as to ensure that the plans and
             procedures , when implemented , effectively support maintenance. These efforts
             include (1) outside review of selected plans and procedures and (2) exercise , by the
             OSF , of its prospective plans and procedures on a representative set of software
             problems and enhancements prior to assuming responsibility for software support.
            (See page 9.

           More visibility is needed into NEXRAD algorithm changes. We are concerned that
           decisions regarding changes and enhancements to the NEXRAD algorithms , after the
           OSF assumes its support responsibilities , may not be sufficiently planned and
           controlled. The aSF should develop an annual plan for modifying and adding
           algorithms. This plan should be reviewed and   approved by the Program Management
           Committee , a tri-agency organization responsible for decisions involving changes
           modifications , and new work which require authority to expend significant OSF
           resources. (See page 11.



           The contractor s obligations under the software warranty are unclear. The
           NEXRAD software warranty is written in general terms and requires further
           interpretation. The JSPOis currently studying the software warranty and plans to
       issue guidelines for its own use in determining whether a software problem is
       covered. However , the JSPO has expressed reluctance to arrive at a general
       interpretation of the warranty with Paramax and has dealt with warranty issues on a
       case-by-case basis. We believe that mutual agreement on interpretation by the
       government and the contractor is necessary to minimize conflict and d elays at the time
       warranty issues arise , to reduce the possibility of the government' s inadvertently
       voiding the warranty, and to allow for the proper planning and administration of
       warranty work. (See page 11.
       Government plans to make software changes may impair the warranty and
       interfere with contractor efforts. Prior to the delivery of the final software by
       Paramax , the OSP may make corrections to the interim software in the event that
       errors are found that impair the operational mission of the system. In some instances
       we would expect corrections to be covered under the software warranty. However
       there is , as yet , no interpretation of the warranty. In addition , a government change
       to the NEXRAD software could affect Paramax s performance and schedule under the
       NEXRAD contract. (See page 12.

Our recommendations begin on page 14.


A copy of NOAA' s written response is attached. Through NOAA' s response and our
subsequent discussions , we have reached agreement on implementing all recommendations
except those dealing with limiting the OSF to production of emergency releases only prior to
delivery of the final NEXRAD software by Paramax and development of a five- year support
plan on which to base staffing estimates. We reaffirmed our recommendations.




                                             III
   Office of Ins ector General                                                        Insoection Reoort


  INTRODUCTION
  Under a tri-agency program , the Depart~ents of Commerce , Defense , and Transportation are
  acquiring the Next Generation Weather Radar system. Using advanced Doppler technology
  and improvements in radar software , NEXRAD radars will improve the detection and
  measurement of storm severity, improve weather warning accuracy, increase warning lead
  times, and provide automated exchange, of digital radar weather data among federal agencies.
  The NEXRAD system will be installed at a total of 154 sites. The Joint System Program
  Office is responsible for the acquisition and deployment of NEXRAD systems. This office
  reports to the NOAA Systems Program Office , which is responsible for integrating the
  various National Weather Service modernization programs. Paramax Corporation is the
  prime contractor for NEXRAD.
  The Operational Support Facility in Norman , Oklahoma , will support the installed NEXRAD
  systems , including maintenance , configuration management , and distribution of the software.
  The JSPO currently controls the OSF budget and is responsible for ensuring that the OSF is
  prepared to support NEXRAD when this responsibility is transferred to the National Weather
  Service. The_ OSF formally reports to the NWS Deputy Assistant Administrator for
  Modernization , and will ultimately be managed by the NWS Office of Systems Operations.

 In order for the OSF to fulfill its critical software support responsibilities , the JSPO will
 need to ensure that OSF staffing levels are properly assessed , training requirements are
 identified and satisfied , the necessary computer resources are made available , and plans and
 procedures for performing the various software maintenance and support tasks are in place in
 a timely fashion.





 PURPOSE AND SCOPE
, The purpose of this inspection was to assess the maintainability of the NEXRAD software , as
  well as the ability of the OSF to assume software maintenance , configuration management
  and distribution responsibilities. This inspection was prompted by concerns we raised about
 deficiencies in Paramax s software development process and their potential impact on the
 maintainability of the delivered software (see
                                                       Final Inspection Report on NEXRAD Software
 Risks Report No. TA- lOO , August 26 ,           1991). In addition , software support is a new
 responsibility for the OSF.

 We reviewed selected NEXRAD software components and associated documentation to

 determine the level of maintainability. We also examined the plans and procedures that are

 being developed to determine whether the OSF will have a well- defined and disciplined

 software maintenance process in place , and we reviewed training, staffing, and resource

 requirements and plans to determine whether the OSF will be prepared to assume software

 maintenance responsibility.
 Office of Ins   ector General                                                     Insoection Reoort


 This report is based on discussions with representatives of
                                                             the NEXRAD JSPO and the OSF.
 It is also based on a review and analysis of the following documents:

        Computer Program Product Specifications for Computer Program Configuration Items
        01 (Radar Data Acquisition Status and Control Program), 02 (Signal Processing.
        Program), and 28 (Performance Analysis and Data Reduction
                                                                         Program) prepared by
        Paramax

        Computer Program Development Plan (Contract Data Requirements List Items 503
        and 607) prepared by Paramax

        Software Management Plan prepared by the NEXRAD Computer Resources Working
        Group

        Computer Resources Management Plan prepared by the NEXRAD Computer
        Resources Working Group

        Integ~ted Logistics Support Plan prepared by the Joint System Program Office

        Requirements Initiative NA-WW- 91-55-02 for the Operational Support Facility

        NEXRAD Responsibility Transfer Plan

We also reviewed briefing materials , internal documentation , and correspondence provided to
us during a visit to the OSF. Finally, we examined selected government review comments
on Computer Program Product Specifications , along with examples of Paramax
                                                                                s comment
resolutions , and draft Paramax Program Support Library documentation.

Currently, 14 NEXRAD systems    have been delivered. Delivery of the fmal system
scheduled for April 1996. Fielded systems incorporate software providing a specific     set of
functions referred to as builds.  The initially fielded systems incorporate software build 5. If.
As further required functions are added to the software and certain known errors are
corrected , new builds are placed in the field. At present , new systems are being fielded with
software build 5. 1g. This build is intended to provide the functions and performance
sufficient for commissioning. ! The NEXRAD production contract calls for two final builds
6 and 7 , which are scheduled for delivery in 1993 and 1994
                                                               , respectively. We reviewed
Build 5. H software and associated documentation for this inspection.

Since inspections are designed for quick corrective action by agency managers , they
generally do not include the detailed analysis associated with management audits. Our work


      . I A system is used on a test
                                       basis prior to commissioning. At commissioning, it
becomes the official operational system.
                                , "




 Office af InSlJectar General                                                                      Ins ectian Re art


 was conducted in accordance with the 

                                                                         issued by the
                                                         Interim Standards for Inspections 


 President's Council for Integrity and Efficiency, as adapted by the Department of Commerce.


 BACKGROUND
 This section establishes a common understanding of software maintainability, maintenance
 configuration management , and distribution functions as they relate to this inspection report.
 It also describes the key documentation necessary for maintaining the NEXRAD software.
 Definitions of terms used in this report are presented in the glossary.

 Software maintainability pertains to the ease of finding and correcting errors.
                                                                                                   Since software
 maintenance comprises 60%-70% of the total life-cycle cost of software systems
 maintainability is an extremely important software quality factor.

Software maintenance is the performance of those activities required to keep a software
system operational ~nd responsive after it is accepted and placed into production. Software
maintenance consists of activities which result in changes to the originally accepted product
set. These changes result from modifications to accommodate corrections
                                                                            , insertions
deletions , extensions , and enhancements.

In general , there are three types of software maintenance: corrective , adaptive , and
perfective. Corrective                    maintenance pertains to changes made as a result of   detecting actual
errors in the system. The second type, adaptive maintenance , consists of modifications to
accommodate changes in the environment in which a software system operates. Examples
include modifications to handle newly installed hardware devices , a new version of the
operating system , new file structures and data formats , and modifications in policies and
rules. The third type, perfective maintenance , involves changes , insertions , deletions
modifications , extensions , and enhancements made to accommodate evolving and possibly
expanding user needs. Examples of perfective maintenance ar~ addition of a new
precipitation model , modification of an existing hail algorithm to improve its accuracy, and
enhancements to improve the user interface to the system.

Software configuration management is the process by which software changes are controlled.
This process applies to the development phase of a software project as well as to the
maintenance phase. Software configuration management ensures that all software change
requests are handled accurately and completely; resulting products satisfy specified
requirements; key software maintenance considerations , responsibilities , and requirements are
identified; and the processing of software change requests is facilitated. Software


           'lW. Osborne Reports on Computer Science and Technology, " NBS Special
Publication 500- 130 , October 1985 in David H. Longstreet , ed. Software Maintenance and
Computers,      (Los Alamitos: IEEE Computer Society Press , 1990) p. 4.
                                                     . '




 Office af InS/Jectar General                                                                                            InS ection Re   ort


configuration management ensures that all appropriate design , product , and test
documentation is updated to reflect changes made to the software.                                              When a software build
comes under configuration management it is considered                                       a baseline.

The software distribution responsibility to be assumed by the OSF will entail providing each
operational NEXRAD site with the magnetic                                           the
                                                                         media containing the latest version               of
operational software.



The NEXRAD software consists
                                              computer programs that provide the functions
                                                       of   a set   of

necessary to meet the processing and performance requirements set forth in the NEXRAD
Technical Requirements specification. One or more computer programs comprise a computer
program configuration item. Each configuration 'item consists of smaller elements referred to
as computer program components , which in turn consist of modules. Together , the' modules
and computer program components of a configuration item satisfy a defined set of system
requirements. Each configuration item has an _ associated Computer Program Product
Specification (also referred to as the C- 5 specification). This documentation is the primary
source of information describing the structure of the configuration item , and it thus provides
the principal !~formation for maintaining the software. The C- 5 specifications contain
graphical and textual information , as well as source code listings , data cross-references,
database references , and tables describing processing interactions for the computer program
components and modules that constitute the various
                                                                                   NEXRAD             configuration items.



OBSERVATIONS AND CONCLUSIONS

           NEXRAD software, documentation, training, and computer resources provide a
           satisfactory basis for maintenance.

                        Code Quality Adequate

           The quality of the code and the associated documentation is the key factor
           determining the cost and effort required for software maintenance. We therefore
           reviewed the C-5 specifications for three representative Computer Program
           Configuration Items. As described above , the C- 5 specifications provide the source
           code , which allows the assessment of the quality of the software itself, as well as the
           descriptive information needed to understand and maintain the code.

           In general ,
                      we found that the code follows the standards specified in Paramax
           Computer Program Development Plan , and these standards are adequate to provide
           maintainable software. We also assessed maintainability by examining such
           characteristics as modularity, variable localization , coupling, and control flow
           complexity. Overall , we found that the   NEXRAD       software is reasonably well
           structured. As can be expected of any  large software system , we found code
           segments that are poorly structured and difficult to understand. However , we believe
                                                                                                                   ----'~-_   C~.


Office of InS ector General

                                                                                            InslJection RelJort





       that from a code quality perspective , most of the NEXRAD software will be
       maintainable without undue effort.

               Software Documentation Improved

       We also found that the format and content of the C-5 specifications are now suitable
       for supporting the asp's software maintenance responsibilities. This is due , in large
       measure , to prodigious efforts made by JSPO and OSF software personnel to
       thoroughly review and comment on early versions of the specifications delivered by
       Paramax. It is also attributable to the corrective actions taken by Paramax to
       accommodate the government' s review comments. We believe that the overall quality
       of the C-5 specifications has been significantly improved as a result of the combined
       JSPO and OSF review process and that the specifications will generally be adequate to
       allow the OSF software engineering staff to maintain the software. .

              Software Maintenance Training Restructured

      Also contributing to the ability of the OSF to maintain the software are the
      improvements to the contractor-provided software maintenance and configuration
      management training. The JSPO and OSF found the initial software maintenance
      course provided during an- earlier phase of the NEXRAD production contract to be
      deficient and were concerned that the subsequent course also would not meet their
      needs. As a consequence , JSPO reached agreement with Paramax to modify
                                                                                       the
      training to better address OSF requirements. Modifications include shortening and
      focusing the software maintenance course , using vendor-provided courses for special
      topics (e. , operating system internals , device drivers , graphics), and providing an
      on-site software specialist from Paramax for six months prior to and six months after
      the software maintenance course.

      In addition ,   Paramax specialists will conduct informal one-week courses at the 

                                                                                                    OSF
      for each of the seven software functional areas of NEXRAD. These one-week
      courses will afford the OSF staff an opportunity to probe the software to depths that
      could not have been attained during the formal maintenance course. For example , the
      staff could use this opportunity to understand in detail the interaction of time-critical
      software components , get clarification of any source code that is not well documented
      or is particularly difficult to understand , and gain insight into how to add new
      algorithms to the system.



      With respect to configuration management , the JSPO has arranged for Paramax to
      provide the OSF staff with formal training in the use of the automated Program
      Support Library, which will be the primary tool used for software configuration
      management. The Program Support Library will facilitate software version control
      configuration change request processing, and automatic generation of operational
      programs based on a controlled source code configuration.
 Office of Ins ector General	                                                          Insoection Reoort




                         Computer Resources Provided

            The OSF has identified the appropriate computer hardware and software necessary to
            fulfill its software maintenance , configuration management , and distribution
            responsibilities , and the JSPO is acquiring these items in a timely manner. Because
            NEXRAD uses a proprietary computer system (Concurrent) for which limited
            commercial software tools are available , Paramax has developed a number of software
            support and testing tools for its own use in developing and testing the NEXRAD
            software. Such tools include stand- alone calibration software for the Radar Data
            Acquisition processor and debuggers (Le., tools for finding and correcting coding
            errors). Although these tools were developed using NEXRAD contract funding, they
            are not formal deliverables under the contract ,   and they therefore do not have the
            associated user documentation. Certain of these tools are useful to the OSF , but
            because of budget constraints , the JSPO is reluctant to taskParamax to document and
            formally deliver them. Paramax , however , has agreed to provide the source code for
            some of these tools and to cover their use in the software maintenance training
            course.
We expressed serious concern in our
                                        Final Inspection Report on NEXRAD Software Risks
Report No. T A- loo , that the lack of a disciplined software development process by Paramax
would have an adverse effect on the maintainability of the software. This concern has been
mitigated significantly by the thorough review of the software documentation by the
government and by reasonable efforts by Paramax to improve it. The improved
documentation , coupled with the restructured software maintenance training program , should
generally compensate for the negative effects on maintainability that may be caused by
development process deficiencies that existed during the earlier stages of the NEXRAD
project.

Our assessment that the NEXRAD software is maintainable by virtue of the relative quality
of the code itself, the accompanying C- 5 specifications , and the planned training program
should not be construed in any way as an assertion that the software , consisting of more than
400 000 executable lines of source code , is free from errors. Instead , maintainability means
that the condition of the software is such that trained software engineers at the OSF should
be able to isolate and correct software errors detected in the fielded NEXRAD systems in a
timely manner.


II.	       The OSF needs to conduct more thorough analysis to adequately estimate
           software maintenance staffing levels.

The OSF Software Engineering Section will be responsible for all system , support , test , and
operational software associated with the
                                         NEXRAP  system. This broad spectrum of
responsibility warrants careful planning to ensure that staffing levels are sufficient for
 Office of Ins ector General                                                       Insoection Reoort


 effective execution of the various tasks that will be assigned , but are not excessive.
 Although the JSPO and OSF have made estimates of staffing needs in the past , detailed
 planning based on an analysis of the specific work to be performed has not been conducted.
 Consequently, the OSF lacks credible staffing estimates.

The present Software Engineering Section consists of seven software engineers who have
extensive experience in the maintenance and development of complex software systems
including systems dealing with meteorological applications. These engineers
                                                                                 have become
familiar with the NEXRAD software as a result of attending the initial software maintenance
training course presented by Paramax , reviewing C- 5 specifications , and investigating
reported software problems. The staff also includes two former: Paramax software engineers
having experience with software development for two of the three major components of the
system , Radar Product Generation and Principal User Processor. This staff should provide an
excellent foundation for building a capable software maintenance team at the OSF.
Ultimately, the JSPO and OSF plan for this organization to be supplemented by support
contractor personnel.

The OSF proy'ided results of two separate analyses of staffing requirements for the Software
Engineering Section. These analyses used different methods , yet arrived at similar estimates
(41 and 47 staff government and support contractor personnel). These estimates were
significantly higher than the estimate of 20 personnel , which is contained in the Integrated
Logistics Support Plan prepared by the JSPO.

While these estimates were useful as initial attempts' at quantifying staffing levels , none was
based on a specific plan for maintaining the NEXRAD software. Estimates should now
reflect what is known about the quality and quantity of code and documentation , and the
known software problems for which the aSF will be responsible. In addition , the JSPO
plans to have Pararnax provide 10 additional software support personnel on-site at the OSF
for a period of two years beginningin early 1993 , and this will affect near-term staffing


will be used.
requirements. At this point , however , there are no plans for how these software personnel


OSF staffing was considered at a meeting of JSPO and OSF representatives on July 1
July 2 , 1992. At that meeting, primarily as a result of the disparity between OSF and JSPO
staffing estimates , the JSPO recommended holding OSF Software Engineering Section
staffing to the current level until a determination could be made concerning the possibility of
having an Air Force Communications Management Engineering Team apply its models to
provide an additional independent estimate of staffing requirements. A decision was
subsequently made at the July 1992 NEXRAD Program Council meeting not to request an
 Office of Ins   ector General                                                   Inspection Report


 Air Force staffing estimate. 3 Instead , the NWS Deputy Assistant Administrator for
 Modernization , who is a member of the NEXRAD Program Council , agreed to study the
 staffing needs of the OSF and report any resource problems at the NEXRAD Program
 Council meeting to be held in November ' 1992.

Currently, the lack of well-defined software support tasks prior to and after delivery of the
final software by Paramax prevents the OSF , JSPO , NWS , the Air Force , or any other
organization from reasonably estimating appropriate staffing levels. In fact , the lack of
clearly defined software maintenance tasking for the OSF was a consideration for not having
an Air Force team perform an analysis of OSF staffing requirements. Although having on-
site support from Paramax can be highly beneficial , the appropriate level of effort is
problematic without well- defined responsibilities for either the OSF or Paramax. It is also
essential that the expected presence of Paramax software engineers at the OSF for two years
does not cause the OSF to become overly dependent upon Paramax for subsequent software
maintenance.

As a basis for determining staffing for software maintenance , the OSF. should develop a five-
year software - ~upport plan that explicitly identifies all known software problems that the aSF
will be required to resolve and their priority, and any planned NEXRAD algorithm
modifications or additions. The completed support plan should contain staffing estimates for
all identified tasks and thereby serve as the vehicle for justifying OSF Software Engineering
Section staffing requirements. The plan also should serve as a basis for determining the
number of Paramax software engineers that can be productively used on-site at the OSF for
the planned two-year period.

For the initial period following delivery of the final NEXRAD software , the plan should be
concerned primarily with corrective measures related to software problems rather than with
algorithm enhancements or development , and it should consider the effort required to deal
with software problems reported from the field. The OSF Hotline Assistance Requests
related to software problems provide a reasonable indication of the types and relative
frequencies of software problems that might be reported by the operational sites.

Finally, the staffing plan should be based on the use of government staff wherever possible
and should provide a rationale for the proposed mix of government personnel and support
contractors. The plan should explicitly define a course of action for transitioning from
Paramax support.




     The NEXRAD Program Council provides overall policy guidance for the NEXRAD
program and approves higher authority decisions. . Voting members are senior officials of the
three agencies acquiring NEXRAD.
                                   . '




 Office of Ins   ector General                                                      Inspection Report


 In our opinion ,   on-site Paramax staff could assist the OSF staff in the following areas:

        Defining site adaptation data and developing automated procedures for handling these
        data

        Helping the OSF understand existing software to support development and
        maintenance of background map data

        Providing guidance and documentation for the use of Paramax- developed test and
        support software for which no formal documentation exists

        Resolving existing software problems

        Correcting deficiencies in the C-5    specifications


        Providing assistance in planning for and transitioning to future releases of the
        Concurrent OS/32 operating system


ID.     Additional efforts are needed to ensure that the OSF has a disci.plined software
        maintenance process. 


A stable , disciplined software development process improves a software organization
 s ability

to achieve its development and maintenance goals and to increase productivity. Such a

process depends on having fundamental controls in place for software project planning and
management , tracking and oversight , configuration I!1anagement , quality assurance
requirements management , and contractor or subcontractor management. 4 These controls
should be clearly documented , well understood by software maintenance managers and staff
and used for both routine and emergency tasks. We found that the OSF is highly aware of
the need for a defined and disciplined software maintenance process. The OSF , in
conjunction with the JSPO , has many of the necessary plans and controls in place and intends
to develop others that are needed. However , we believe that additional steps are necessary to
help ensure , before the aSF formally assumes its maintenance responsibilities , that its plans
and controls are effective.

Currently, two top- level management plans , the Software Management Plan and Computer
Resources Management Plan , are being revised by the OSF to accommodate technical and
contractual changes that have occurred since their approval. The Software Management Plan
describes the overall software maintenance strategy and functional activities needed to
support the NEXRAD software. The Computer Resources Management Plan describes the


         Charles V. Weber et al. 
 Key Practices of the Capability Maturity Model CMU/SEI­
91- TR- 25 (Pittsburgh: Software Engineering Institute , 1991) pp. L2-  L2- 84.
 ffice of Insoector General                                                     Ins ection Re ort



computer resources required by the OSF to maintain the NEXRAD software. The revised
plans will be reviewed by the NEXRAD Computer Resources Working Group and submitted
to the NEXRAD Program Council for approval. The Computer Resources Working Group
is a tri-agency group responsible for updating the NEXRAD software maintenance
philosophy. Members include representatives of the JSPO , OSF , NWS Office of Systems
Operations , Air Force , and FAA.

In addition to these plans , the OSF is working on a Configuration Management Plan
Software Quality Assurance Plan, and Software Development Procedures , which will provide
additional detail and guidance for the OSF' s software support mission. The OSF Director
has formal approval authority for these plans , but no external review is planned for these
three documents. In order to ensure uniform quality of OSF software products , the OSF will
require support contractor personnel to adhere to the same standards and procedures followed
by OSF software engineers.

We believe that the OSF will have a reasonably well- defined and controlled process in place
for maintaining the NEXRAD software. However , because the complete set of plans and
procedures W(:i$ not available for review at the time of our inspection , we cannot be certain
that all the necessary planning and control issues will be addressed. Areas that frequently
pose problems for new software organizations include (1) estimating costs and schedules for
software maintenance tasks, (2) establishing rigorous test procedures , (3) establishing
effective procedures for interfacing with the system engineering, system test ,. and
configuration management organizations, (4) controlling requirements , and (5) managing
contractors or subcontractors.



It is essential that the plans and procedures , when implemented , effectively support
maintenance , are well understood by software maintenance personnel , are used routinely, and
are not abandoned in emergency situations. Therefore , as a means of identifying any
problems with the plans , as well as areas for refinement , the Computer Resources Working
Group should review the complete set of plans and procedures , and provide feedback to the
aSF. Particular attention should be provided by the Office of Systems Operations in this
review both because of its experience in maintaining other NWS software systems and
because this office eventually will have management responsibility for the OSF.

Finally, the OSF should exercise its prospective plans and procedures on a representative set
of software problems and enhancements prior to assuming responsibility for software
support. This software maintenance exercise will identify weaknesses with the plans and
procedures , as well as train staff in their use. Plans and procedures should be tested on
emergency, urgent , and routine problems and should cover the maintenance life cycle fr~
identification of a problem or requirement to release of a corrected or enhanced baseline.
Special attention should be paid to the areas indicated above as potential problems for new
organizations. The lessons learned should be used to identify problems or deficiencies in the
plans and procedures and make refinements.
  Office of Ins ector General                                                                    Insoection Reoort


 IV.         More visibility is needed into NEXRAD algorithm changes.

 Although the OSF intends to modify existing algorithms and add new ones , we found no
 documented plans identifying such algorithms and the prospective changes to them. Such
 planning is essential for the OSF to estimate its staffing requirements. In addition , we are
 concerned that decisions regarding algorithm changes after the OSF assumes its support
 responsibilities may not be sufficiently controlled. Substantial changes to the NEXRAD
 algorithms should not be made until the system is stable , and all three agencies should clearly
 understand and agree to any proposed changes.

 The asP' s  draft Configuration Management Plan provides for OSF approval of any system
 changes under $1 million. According to    the plan , major engineering changes of over $1
 million have to be approved by the Program Management Committee. This tri-agency
 committee , subordinate to the NEXRAD Program Council , will be responsible for decisions
 involving changes , modifications , and new work which require authority to expend
 significant OSF resources. It will also review OSF activities , monitor staffing and funding,
 and act as a high level configuration control board. 





We are concerned that the threshold of $1 million will not adequately control software
modifications since significant changes can be made for well under this amount. Moreover
algorithm changes and additions should not take place in a piecemeal fashion and should not
be made without the explicit understanding and consent of the participating agencies.
address these issues , the OSF should develop an annual plan for modifying and adding
algorithms. The plan should cover algorithms for hydrology, meteorology, and signal
processing. It should present the rationale , technical approach , and cost and schedule
estimates for the proposed changes and additions. The Program Management Committee
should review and approve this plan.


            The contractor s obligations under the software warranty are unclear.

Section H of the NEXRAC production contract                                       states that
                                                             Special Contract Requirements,

all delivered software and any associated documentation shall be free of defects and fully
compliant with contract requirements for a period of 60 months after contract award. This
60-month period will end in December 1992. In addition , Section H specifies that all
software changes and any associated documentation provided by Paramax and delivered to
the government shall be fully compliant with the performance requirements of the NEXRAD
Technical Requirements specification and the authenticated (approved) development and
product specifications (the C- 5 specifications) for a period of one year following acceptance
of that change by the government.



             The NEXRAD Computer. Resources Working Group,                         NEXRAD Software
Management Plan, 
   December 15 , 1989 , p. 2­
 Office of Ins ector General	
                                                                                   Insoection Reoort


For the time periods mentioned above , Paramax is required to correct , at no cost to the

government , all applicable software errors and provide corrected software and updated

documentation within 120 days of problem notification by the government. The contract also

states that the software warranty becomes null and void only for those modules that are
modified by the government. Correspondingly, Section H states that if a software failure
occurs during the warranty period which can be attributed to a government software
modification , Paramax shall be entitled to an equitable adjustment in the contract price for all
corrections required due to the government modification.

In praptice   , in a large software system such as NEXRAD , it is virtually impossible for the
delivered software to be free of all defects , and it may not be practical to require the
contractor to correct lower priority defects. In addition ,   how the warranty actually would be
applied to software changes is unclear.     The JSPO is currently studying the software
warranty and plans to issue guidelines for its own use in determining whether a software
problem is covered by the warranty. However , the JSpa has expressed reluctance to arrive
at a general interpretation of the warranty with Paramax and has dealt with warranty issues
on a case- by-case basis. We believe that mutual agreement on the interpretation by the
government aI!d the contractor is necessary to minimize conflict and delays at the time
warranty issues arise, to reduce the possibility of the government' s inadvertently voiding the
warranty, and to allow for the proper planning and administration of warranty work. At this
time , it is not clear what corrections the warranty covers , how a determination would be
made that a software failure is attributable to a modification made by the government
                                                                                        , and
what the value is of preserving the software warranty.


VI.	   Government plans to make software changes may impair the warranty and
       interfere with contractor efforts.

                 Incomplete Emergency Release Procedures

       As discussed previously, the OSF' s maintenance role prior to the delivery of the final
       software build by Paramax has not been clearly established. One function that has
       been considered is that of making corrections to the software in the event that serious
       errors are found after delivery and acceptance of interim builds. Serious errors are
       those which impair the operational mission of the system and for which there are no
       known workarounds.     Corrected software provided to the sites under these
       circumstances is termed an emergency release. In some instances , we would expect
       emergency releases to be covered under the software warranty. In other instances
       particularly after December 1992 when major parts of the warranty expire , it may be
       necessary for the OSF to make corrections on an emergency basis to keep systems
       operational.

       The NEXRAD Computer Resources Worki~g Group met in August 1992 to define
       procedures governing em.ergency releases by the OSF. The working group
                                                                              distributed
                                    , "                                                            , ,




Office of Ins ector General                                                        Insoection Reoort


       a draft document entitled Emergency Release Interim Procedures " to be used as
       guidance by the JSPO and the OSF until detailed procedures can be incorporated into
       the Software Management Plan and the Configuration Management Plan. The interim
       procedures task the JSpa Configuration Control Board , a tri-agency board chaired by
       the NEXRAD program manager , to determine which reported software problems
       qualify for inclusion in an emergency release. In evaluating a problem for inclusion
       in an emergency release , the Configuration Control Board will need to determine
       whether the problem is covered by the software warranty and whether the OSF or
       Paramax should be responsible for correcting the problem. In order to make this
       determination , the board needs to be provided with an interpretation of the warranty
       and guidance on its application. The effective development and application of
       emergency release procedures will qe hampered until the warranty implications have
       been resolved.

       The JSPO and OSF are aware that any modifications made to fielded software by the
       OSF to accommodate an emergency release must be communicated to Paramax so that
       the modifications can be incorporated into Paramax s evolving build. However
       procerl:':lres for doing this have not been established either.




               Dual Software Baseline     Risks


       In addition ,   issues arise as a result of two software baselines being worked on at the
       same time. Changes made by          the OSF to Build 5. 1g while Paramax is developing
       Build 6 will subsequently have to be incorporated into Build 6. Similarly,
                                                                                      changes
      made by the OSF to Build 6 after it is operational and while Paramax is developing
      Build 7 will subsequently have to be incorporated into Build 7. Problems can arise if
      the OSF makes a modification that changes the behavior of the operational or
      developing baseline in unintended ways , or if the changes made by Pararnax to the
      developing baseline affect the behavior of modifications made by the OSF to the
      operational baseline. Problems will occur if a modification is incorrect or introduces
      errors; problems can also occur even if a modification is valid and correct. A
      government change that has unintended consequences for an evolving baseline could
      affect Paramax ' s performance and schedule under the NEXRAD production contract.

      While it may be appropriate or necessary for the OSF to issue emergency software
      releases to the sites while the NEXRAD production contract is still underway, this
      should not be done without mutual agreement of the government and contractor
      regarding the interpretation of the warranty, an understanding of the risks , and
      effective procedures for both parties to identify and track modifications to the
      software baselines. In addition , although the aSF may wish to make non-emergency
      software modifications in order to gain experience with the NEXRAD software and to
      have corrections ready to incorporate after , delivery of the final software by Paramax
      these modifications should not be distributed to the field while Paramax is developing
.,



      Office of InSDector General                                                      InS ection Re     ort


             a follow-on baseline. Finally, the OSF will need to track modifications made by
             Paramax so that their potential impact on its non-emergency changes can be
             evaluated.


      RECOMMENDA TIONS

      NOAA' s response indicates agreement with all of our recommendations. However , the
     responses regarding recommendations #2 , #3 , and #4 do not indicate how these
     recommendations will be implemented. As a result , we held discussions with a JSPO
     representative to further clarify NOAA' s intent. A summary of these discussions is provided

     with recommendations #2 , #3 , and #4 below since a formal written response was not

     requested.


     We recommend that the Deputy Under Secretary for Oceans and Atmosphere:

     Recommendation #1


     Direct the JSPO to seek agreement with Paramax on the interpretation of the NEXRAD
     ~ftware warranty. 

     Recommendation #2


     Direct the JSPO and NWS to limit changes to the NEXRAD operational software by the OSF
     to emergency corrections only until delivery of the fmal software under the NEXRAD
     production contract. Such emergency corrections should be consistent with the software
     warranty.

     Summary of Discussions With JSPO

     NOAA' s written response describes the steps that are being taken to develop effective
     procedures for the OSF's preparation and distribution of emergency software releases , but
     does not explicitly agree to limit the OSF to providing only emergency software releases to
     sites prior to delivery of the final NEXRAD software product , build 7 , by Paramax. The
     JSPO has indicated its desire to limit the OSF to providing only emergency software releases
     prior to delivery of build 7 , but noted that the three agencies would like to be able to request
     the OSF to provide other than an emergency release to accommodate inclusion of tri-agency
     approved enhancements. However , since build 5. lh     will provide the functional basis for
     commissioning NEXRAD radars , the JSPO indicated that the likelihood of a tri-agency
     request to provide a non-emergency release prior to delivery of build 7 is very small.

     We believe that once the NEXRAD software is acceptable for commissioning, there is no
     need to provide any enhancements prior to delivery of build 7 , and we continue to
     recommend that NOAA restrict the OSF to providing emergency software releases only prior
  Office of InS    ector General                                                  InSDection Reeort



 to delivery of build 7. Such restriction would limit the amount of software version control
 and distribution required of the OSF and would allow it to focus on the high priority tasks of

 problems.
 developing and refining its software maintenance process and correcting existing software


 Recommendation #3


 Direct the OSF to develop a five- year    software support plan. This plan should determine the
work that the OSF Software Engineering Section needs to perform in order to be prepared to
assume full maintenance responsibility and to make necessary emergency corrections prior to
delivery of the final software under the NEXRAD production contract. It should also
identify the software maintenance tasks that will need to be accomplished after delivery of
the final NEXRAD software.

Summary of Discussions With JSPO

NOAA' s response indicates that The MITRE Corporation is currently involved in developing
staffing estim~tes for the aSF and includes a brief description of MITRE'
                                                                          s effort to do this
along with its current effort to help the OSF develop and refine a software maintenance
process. The response does not , however , address development of the recommended five-
year software support plan and does not indicate that MITRE' s staffing estimates or the
process development effort will be based on clearly identified software maintenance tasks to
be accomplished by the OSF both prior to and subsequent to delivery of build 7. We believe
that to be credible , estimates of aSF staffing levels and development of an effective software
maintenance process must be based on a plan that sets forth the specific tasks to be

performed.


Recommendation #4


Recommend to the        NEXRAD     Program Council that' the OSF develop an annual plan for
modifying and adding algorithms.

Summary of Discussions With JSPO

NOAA' s response to this recommendation describes a process whereby the three agencies
will be able to access an OSF-maintained data base containing information about changes to
algorithms and addition of new algorithms , but does not indicate agreement with our
recommendation to have the OSF prepare an annual plan for modifying and adding
algorithms. As a result of subsequent discussions , the JSPO has agreed to comply with this
recommendation by requesting the OSF Applications Branch to prepare an annual plan which
would identify Engineering Change Proposals related to algorithm moditication or addition
that have been approved by the aSF Configuration Control Board or the Program
Management Committee as appropriate. The plan would also serve as input to the OSF'
                               . .




Office of Inscector General                                                    Ins ection Re ort



annual release plan which will undergo tn-agency review. The OSF will provide details
about the annual release plan in the revised Software Management Plan.

Recommendation #5


Direct the NEXRAD Computer Resources Working Group to review the OSF Configuration
Management Plan , Software Quality Assurance Plan , and Software Development Procedures
and provide feedback to the asP. Direct the NWS Office of Systems Operations to perform
as part of the review effort , an in-depth assessment of these plans and provide feedback
through the Computer Resources Working Group.

Recommendation #6


Direct the OSF to exercise its prospective plans and procedures on a representative set of
software problems and enhancements prior to assuming responsibility for software support
and to use the lessons learned from this software maintenance exercise to identify problems
or deficiencies in the plans and procedures and make refinements.

Recommendation #7


Direct the JSPO to obtain from Paramax the source code for any undocumented test and
support software tools developed on the NEXRAD contract for which the OSF identifies a
need.
 Office af Ins ectar General                                                        Insoectian Reoort



                                           GLOSSARY



Algorithm. A set of well-defined rules for the solution of a problem in a finite number of
 steps.

Authenticated specification. A specification which the government has determined is
correct. After a   specification is authenticated , it becomes part of the system baseline , and

changes must be accomplished through formal change control procedures. (See baseline.



Baseline. As used in this report , software and associated technical documentation that
defines the evolving or approved software product and serves as the basis for further
development. An approved baseline can be changed only through formal change control
procedures. (See software configuration management.

Build. An   operational version of a software system that incorporates    a specified subset of
the capabilities that the final product will provide.

   5 specification. A document that describes the design of a software system and includes
system architecture , control logic , data structures , input/output formats , interface
descriptions , and algorithms. A C- 5 specification is also referred to as a computer program
product specification. 

   mmissioning. With respect to NEXRAD , commissioning is the orderly process to
ascertain that a NEXRAD site can provide all its products and services using the WSR- 88D
system as its primary source of information.

Computer program configuration item. An ,aggregation of software that is designated by
the government for software configuration management. (See software configuration
management.

Configuration control board. A committee responsible for the systematic evaluation and
approval or disapproval of proposed changes to the approved functional or physical
characteristics of hardware or software.

Control flow complexity. The degree        to which the sequence of operations performed during
execution of a computer program can be understood and verified.

Coupling. The manner and degree of interdependence between software modules.

Debugger. Tool for finding and correcting software errors.
Office of InS ector General                                                      Ins/Jection Re/Jort





Emergency release. A software system that is distributed to NEXRAD sites to correct
serious errors that impair the operational mission of the system and for which there are no
workarounds. (See workaround.

Modularity. The degree        to which a computer program is composed of discrete components
such that a change to one component has minimal impact on other components.

Software configuration management. A discipline by which technical and administrative
direction and surveillance are applied to (a) identify and document the characteristics of the
software , (b) control changes to those characteristics , and (c) record and report on change
processing and implementation status.

Software maintainability. The ease with which a software system can be modified to

correct faults , improve performance , or adapt to a changed environment.

Software maintenance. The performance of those activities required to keep a software
system operational and responsive after it is accepted and placed into production.

Variable localization. The   practice of declaring variables or data structures and limiting
their scope to those software modules that require access to them.

Workaround. A process that permits an identified problem to be avoided , or its effects
nullified , by introducing new operational procedures or modifying existing ones.
                                . '




Office of Ins/Jector General                                      /ns ection Re ort



                                       ACRONYMS


FAA            Federal Aviation Administration



JSPO           Joint System Program Office

NEXRAD         Next Generation Weather Radar

NOAA           National Oceanic and Atmospheric Administration



NWS            National Weather Service

OSF            Operational Support Facility
                                    / ..."

                                         '" "   . '-                                        ".
                                                                                            ""'-~.
                                                                                            ~""""

                                            -1' ..                           ATTACIIMEI\'
                                          z~,          UNITED STATES DEPARTMENT OF COMMERCE
                                           -;r         The Deputy Under Secretary for
                                                       Ocean a and A
                                                                   	 tmosphere
                                     o 'res
                                        ~"o' ~         Wasn,ng::cn. D,   c. 20230

                                                                    5 ISai





MEMORANDUM FOR:	   Frank DeGeorge

                   Inspector General

FROM:	             Ray KammerQ.,~
SUBJECT:	          OIG Draft Inspection Report on NEXRAD
                   Software Maintenance (Report No. SED-45S9-XXX)

We agree with the recommendations contained in the subject draft
report.  Attached are our specific comments in that regard.
Attachment,




                                                                                              I' . 

               Response to GIG Draft Inspection Report

                     NEXRAD Software Maintenance

ResDonse to abserfatio~s and' Conclusions:


       NEXRAD software. documentation. traininq. and comDuter
       resources provide a satisfactory basis for maintenance.

We agree with the conclusions stated in this section. 

general, the code follows the required standards, and most code

will be maintainable without undue effort. The
                                                software
documentation has improved markedly since the early versions and

is adequate to allow the aSF software engineering staff to

maintain the software.
The software maintenance training will provide for a formal

training course and an informal forum that allows specific

aspects of the software maintenance requirements to be
in the detail required by the individual maintainers. addressed
                                                      It will

also provide opportunities for specific questions and problems to
be addressed, after the aSF personnel gain post-training
experience, by the on- site Paramax software specialist.
We are continuing to work with the aSF and paramax to identify

and acquire additional computer resources. The aSF test system

and Software Development System (SDS) are currently in place and

being used by the aSF staff. A SUN file server with multiple

workstations is planned for delivery by paramax in the near

future. We are currently planning the work to be loaded onto the

SUN and analyzing the SUN system capacity to handle this

workload.
paramax has generated several software maintenance tools that
were not a result of specific NTR requirements. We are working
with the aSF and Paramax to identify the need for these or
additional tools that may be  useful. Paramax has already
delivered the source code for several of these tools. As
the final delivery of software from Paramax, the JSPO will part of
request paramax to provide any additional tools, test sets,
that were generated under contract funds which have not been     etc.,
previously provided.


II.	   The OSF needs to conduct more thorouqh analysis to
       adequately estimate software maintenance staffinq levels.
MITRE Corporation is currently working with the aSF to estimate

the aSF' s required software maintenance staffing levels.
was initiated during November to gather information. OnceA study
data is acquired, an appropriate staffing model will be     the
identified , the data run through it, and an independent estimate
of required s~affing levels determined. The current schedule
calls for data gatheri~g to be completed early in December 1992,
preliminary data of reQUired staffinq estimates to be available
by the end of the year: a JSPO/OSF /080 analysis of the data in
January 1993, and recommendation to the Program Management
Committee (PMC) in February   1993. This information will be
provided to the NEXRAD Program Council (NPC) for their
consideration during their March/April 1993 meeting.

The estimate provided by the MITRE task will provide a raw number
of personnel and will not address the mix of Government and
contractor personnel. The OSF has recently hired two additional
software engineers (bringing the number to nine) and has plans to
hire two more in the near future. Titan Corporation currently
has five software engineers assigned to OSF software maintenance
support.  The Government currently has two people supporting
software configuration management (eM) and system generation
(including map backgrounds) with one planned hire in the near
future.  There are two Titan personnel assigned to support these
tasks.  There are currently two Government Software Quality
Assuranc~ (SQA) engineers with one additional person starting in
the middle of December   1992.Under the Interim Contractor
Support (ICS) of the NEXRAD contract with Pararnax, there are
three software engineers supporting the OSF (both software
engineering and eM) until February 1993.
The JSPO is currently in the process of modifying the NEXRAD

contract to provide ten Paramax software engineers to the OSP for

two years. The purpose of these engineers is to provide the OSF

with training and support for specific tasks required to maintain

the NEXRAD systems. The number of engineers was determined by

the different areas in need of this support (e.g., signal
processing, configuration management, map background generation)
The time- frame was determined to allow the OSF to gain a
reasonable amount of experience after the final Paramax delivery,
i . e., Build 7. 0 .
Upon further refinement of OSF maintenance plans, the optimum
number of support personnel may change. There is enough
flexibility in the Titan support contract and the planned Paramax
contract modification to allow the Government to react to any
needed changes in staffing levels or durations.

III.   Additional efforts are needed to ensure that the OSF has a
       disciDlined software maintenance process.
We agree that a stable, disciplined software development process

is paramount for the OSF to do their job of maintaining the
NEXRAD system. As stated, the OSF is updating the Software
Management Plan (SMP)' and the Computer Resources Management Plan
(CRMP). The NEXRAD Computer Resources Working Group (NCRWG) is
scheduled to meet in January 1993 to finalize the plans for NPC

approval. These are high level plans, more policy than

procedure. The OSP is also updating their Configuration

Management Plan, Software Quality Assurance Plan, and Software

Development Procedures. There is currently no requirement for

these lower level plans to be reviewed by any outside

organization. We agree that these plans should be reviewed by

the Office of Systems Operations (OSO) because of both their
management responsibility and their experience in the area of
software maintenance. They should also receive appropriate
review by the agencies. The NCRWG may be the appropriate ~roup
to review these plans, but it is not currently in that group'
charter. The subj ect will be placed on the agenda ,
during the January meeting. It will be suggested toforthediscussion
                                                           NCRWG
that the SMP be updated to include provisions for both OSO and
agency review of all appropriate OSF plans and procedures.

Several acti vi ties are occurring to test, review, and improve the
OSF' s software development process. As part of the Build 5.
software release, the OSF will develop and run independent tests
(engineering and operational) t~ determine that the corrections
have been properly implemented and the build is acceptable for
release to the field. They will build releases for two field
sites, including applications software, operating systems, and
map backgrounds, send those to the field along with releases for
two other sites that were built by paramax and delivered to the
OSF, and run beta tests to ensure the stability of the release.
The OSF is responsible for coordinating and accomplishing these
tasks.   Once the effort is completed, it will be assessed and can
be used as a baseline for improving the process.
During November 1992, the Software Engineering Institute (SEI)
presented an overview of the work they have done to identify
software development process and implement continuing assessment
and improvement programs. This information was well- received by
the OSF staff and planning is taking place to implement a long
term improvement plan at the OSF. SEI, OSF, MITRE, JSPO, and
System Program Office personnel (SPO) will meet to develop a
software development process improvement plan to be implemented
at the OSF. This plan will cover process identification, process
assessment, and continuing process improvement. The information
gained from the Build 5. 1h effort will be factored in, as well as
the plans that the OSF has already developed. The plan is still
in its ear~y phases, but one aspect that has been talked about is
having the OSF build a release implementing a subset of the
Configuration Change Requests (CCR) that have already been
identified by Paramax as a software maintenance exercise and
following that up with a Software Process Assessment (SPA). The
current schedule calls for a briefing to management (OSF, OSO,
JSPO, agency focal points) to outline strategy (occurred
12/10/92) with the goal of presenting a more detailed plan in

Febr~ary 1993 to provide an estimate of resource requirements

(i. e.,the time required of the software engineers to be
dedicated to software development process improvement). The

understanding and commitment by management. and the dedication of

necessary resources by them; will allow the software development
process to be an aid to the OSF in performing their job.

IV.   More visibility is needed into NEXRAD alaorithm   chancres.
We agree that more visibility is needed into NEXRAD algorithm

changes, determining what and when changes are made. Along those
lines, the OSF has agreed to make the detailed status of CCR' s

available to the agencies on a regular basis through access to

the OSF database. Any proposed changes to algorithms will be

documented by the Applications Branch of the OSF and submitted to
configuration management for inclusion in the database and review
by the OSF Configuration Control Board (CCB) '    In addition, it
was agreed at the Program Management Committee (PMC)
organizational meeting that any change to. the system that has an
est~ated  cost of greater than $200, 000 (development and
installa~ion) or an estimated development effort of greater than
1000 hours will be presented to the PMC for approval. The
Configuration Management Plan has been updated to change the $1
million threshold to the agreed to    criteria.
      The contractor'   s obliqations under the software warranty are
      unclear.
The initial S year software warranty has     e~ired;
                                                  the one year
warranty on the incremental software provided with each
subsequent release is currently active on Build 5 . 1g. With the
acceptance of Build 6. 0, the Government will have one year of
software warranty coverage for all differences in sottware since
Build 5 . 1g,
            a significant portion of the system. , Several known
minor software deficiencies, itemized in the contract, are the
responsibility of the OSF to
covered by the warranty.

                                 correct.
                                       These errors will not be

Paramax did generate the fixes required by Build 5. 1h under the
software warranty (i. e., no charge to the Government), however,
charges were still incurred by the Government because we required
that the fixes be delivered sooner than the allowed 120 days.
This acceleration was required in order to meet the initial
commissioning schedule of the National Weather Service. If a
serious error is detected in the fielded syst~~ and determined
to be covered by the software warranty, it is possible that the
Government will determine that the corrections are required
sooner than the 120 days, in which case the Government would be
responsible for some costs.

After delivery of Build 6. 0 to the Government, it is Drobable

that the aSF will begi~ making corrections to the software in
order to address the needs of the agencies in the most cost
effective and timely manner. The Build 7. 0 changes (system
redundancy functionality) should be very separable from the
remainder of the system, so it will be more cost effective for

the aSF to take those changes and incorporate them into the aSF'
baseline, rather than incorporate the varied aSF changes into the
pararnax Build 7.                     0 baseline.
It is in the best interest of the Government to continue the

software warranty. The cost has already been paid, and with the
major portion of the warranty ended, the Government would
probably not be due a very significant rebate. By maintaining
the warranty, the expertise of original software developers 


i. e ., pararnax system and software engineers, would still be
available to support the                                    correction.
                                         This would provide a
significant advantage in expediting a quality correction. The
acceleration would cost the Government additional money, but the
overall cost to impl~~ent the correction would be less than if
the work-           ~as put
                    completely on the aSF. The technical and
schedule risks of making the correction would also be less.

Prior to the acceptance of Build 6. 0, the Jspa will meet with

Pararnax to agree on procedures for identifying deficiencies that
fall under the software warranty provisions of Build 6. 0, develop
a methodology that, will allow the aSF and paramax to work
together to design and implement the corrections, and determine
criteria for identifying all additional costs that the Government
may be responsible for.

VI.	 Government plans to make software        changes may impair the
            warranty and interfere with contractor efforts.
With the generation and delivery of Build 5. 1hby Paramax, it is
no longer anticipated that the aSF will make any changes to the
NEXRAD software prior to the acceptance of Build 6. 0 . Because of
this, it is no longer necessary to continue the effort to approve
the "Emergency Release Interim Procedures.   The NCRWG will
ensure the SMP contains appropriate guidance for issuance of
emergency releases by the aSF, taking into account the current
plans for Build 6. 0 and Build 7.   The aSF Configuration
Management Plan will contain the detailed Emergency Release
                                                                  0.
Procedures. These will be reviewed by the agencies as part of
the review of the OSF Configuration Management Plan, as specified
by the SMP (see III, above).
The SMP is being updated to address the control of dual software

baselines, including .mul tiple fielded baselines, emergency
releases, and development baselines, both Pararnax and aSF. The
. " :' ,




           aSF Configuration Management Plan will be updated as necessary to
           con~ain the necessary detailed procedures.


           ReSDonse to Recommendations:


           Recommendation #1

           We agree with this   recommendation.
 See V ,   above.

           Recommendation #2


           We agree with this   recommendation.
 See V and VI, above.

           Recommendation #3

           We agree with this   recommendation.
   See II, above.

           Recommendation #4


           We agree with this   recommendation.
   See IV, above.

           Recommendation #5

           We agree with this   recommendation.
   See III, above.

           Recommendation #6

           We agree with this   recommendation.
   See III, above.

           Recommendation #7

           We agree with this   recommendation.
   See I, above.

